     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106



May 5, 2010

Report Number: A-07-09-00315

Ms. Sandy Coston
President and Chief Executive Officer
First Coast Service Options, Inc.
532 Riverside Avenue
Jacksonville, FL 32202

Dear Ms. Coston:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Postretirement Benefit Costs Claimed for
Medicare Reimbursement by First Coast Service Options, Inc., for Fiscal Years 2006 and 2007.
We will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-09-00315
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Sandy Coston

Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
    Department of Health & Human Services
              OFFICE OF
         INSPECTOR GENERAL




REVIEW OF POSTRETIREMENT BENEFIT
   COSTS CLAIMED FOR MEDICARE
  REIMBURSEMENT BY FIRST COAST
 SERVICE OPTIONS, INC., FOR FISCAL
       YEARS 2006 AND 2007




                         Daniel R. Levinson
                          Inspector General

                             May 2010
                           A-07-09-00315
                        Office of Inspector General
                                            http://oig.hhs.gov




The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

During our audit period, First Coast Service Options, Inc. (FCSO), administered Medicare Part A
and Part B operations under cost reimbursement contracts with the Centers for Medicare &
Medicaid Services (CMS).

In claiming postretirement benefit (PRB) costs, contractors must follow cost reimbursement
principles contained in the Federal Acquisition Regulation and applicable Cost Accounting
Standards (CAS), as required by the Medicare contracts.

FCSO participates in a voluntary employee benefit association trust for the purpose of funding
annual accruals. Furthermore, FCSO’s accounting practice uses segmented accrual accounting
for PRBs.

Following the close of each fiscal year (FY), FCSO submitted a Final Administrative Cost
Proposal (FACP) to CMS reporting the administrative costs of performing Medicare functions
during the year. The accrued PRB cost is part of the administrative cost of performing Medicare
functions and, as such, is claimed on each FY’s FACP.

OBJECTIVE

Our objective was to determine the allowability of accrued PRB costs that FCSO claimed for
Medicare reimbursement for FYs 2006 and 2007.

SUMMARY OF FINDING

FCSO claimed some unallowable Medicare accrued PRB costs for FYs 2006 and 2007. The
overclaim occurred primarily because FCSO based its claims on overstated end-of-year CAS
PRB costs. FCSO used the overstated end-of-year CAS PRB costs to claim accrued PRB costs
of $6,845,282 for Medicare reimbursement. We calculated allowable accrued PRB costs for FYs
2006 and 2007, based on separately computed CAS PRB costs for the Medicare segment and the
“Other” segment, to be $6,477,898, a difference of $367,384.

RECOMMENDATIONS

We recommend that FCSO:

   •   decrease its FACP accrued PRB costs by $367,384 and

   •   ensure that future accrued PRB cost claims are in accordance with the Medicare
       contracts.




                                               i
AUDITEE COMMENTS

In written comments on our draft report, FCSO agreed with our finding and stated that it will
implement our recommendations. FCSO’s comments are included in their entirety as
Appendix B.




                                                ii
                                             INTRODUCTION

BACKGROUND

First Coast Service Options, Inc., and Medicare

During our audit period, First Coast Service Options, Inc. (FCSO), administered Medicare Part A
and Part B operations under cost reimbursement contracts with the Centers for Medicare &
Medicaid Services (CMS). In claiming postretirement benefit (PRB) costs, contractors must
follow cost reimbursement principles contained in the Federal Acquisition Regulation (FAR) and
applicable Cost Accounting Standards (CAS), as required by the Medicare contracts.

FCSO participates in a voluntary employee benefit association trust for the purpose of funding
annual accruals. 1 Furthermore, FCSO’s accounting practice, approved by CMS, uses segmented
accrual accounting for PRBs.

Medicare Reimbursement of Postretirement Benefit Costs

CMS reimburses a portion of the funded accruals that contractors charge for their PRB plans. To
be allowable for Medicare reimbursement, FAR 31.205-6(o) requires that PRB accrual costs be
(1) determined in accordance with Statement of Financial Accounting Standards (SFAS) 106 and
(2) funded into a dedicated trust fund, such as a voluntary employee benefit association (VEBA)
trust.

Following the close of each fiscal year (FY), FCSO submitted a Final Administrative Cost
Proposal (FACP) to CMS reporting the administrative costs of performing Medicare functions
during the year. The accrued PRB cost is part of the administrative cost of performing Medicare
functions and, as such, is claimed on each FY’s FACP.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the allowability of accrued PRB costs that FCSO claimed for
Medicare reimbursement for FYs 2006 and 2007.

Scope

We reviewed $6,845,282 of accrued PRB costs that FCSO claimed for Medicare reimbursement
on its FACPs for FYs 2006 and 2007. Achieving our objective did not require that we review
FCSO’s overall internal control structure. However, we reviewed internal controls relating to the
accrued PRB costs claimed for Medicare reimbursement to ensure that the accrued PRB costs
were allowable in accordance with the FAR.


1
 FCSO participates in employee benefit plans, such as the VEBA trust, of its parent company, Blue Cross Blue
Shield of Florida, Inc.


                                                       1
We performed fieldwork at FCSO’s office in Jacksonville, Florida, in February and March 2009.

Methodology

We reviewed the applicable portions of the FAR, CAS, and Medicare contracts. Additionally,
we reviewed FCSO’s FACPs to identify the amount of accrued PRB costs claimed for Medicare
reimbursement for FYs 2006 and 2007. We also determined the extent to which FCSO funded
CAS PRB costs with contributions to the VEBA trust fund and accumulated prepayment credits
or with direct payment of benefits.

In performing this review, we used information provided by FCSO’s actuarial consulting firm,
which included the VEBA assets, PRB obligations, service costs, contributions, claims paid,
claims reimbursed, investment earnings, and administrative expenses. We reviewed FCSO’s
accounting records, the PRB plan documents, VEBA trust transaction documents, and PRB
actuarial valuation reports, which included SFAS 106 information. The CMS Office of the
Actuary used the information to develop PRB costs for FCSO based on SFAS 106 methodology
pursuant to the FAR. In turn, we reviewed and accepted the actuarial data and used it to
calculate the accrued PRB costs that were allowable for Medicare reimbursement for FYs 2006
and 2007. We based our calculations on separately computed CAS PRB costs for the Medicare
segment and the “Other” segment.

We performed this review in conjunction with our audits of FCSO’s segmented PRB assets
(A-07-09-00314) and pension costs claimed for Medicare reimbursement (A-07-09-00312). We
used the information obtained and reviewed during those audits in performing this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

FCSO claimed some unallowable Medicare accrued PRB costs for FYs 2006 and 2007. The
overclaim occurred primarily because FCSO based its claims on overstated end-of-year CAS
PRB costs. FCSO used the overstated end-of-year CAS PRB costs to claim accrued PRB costs
of $6,845,282 for Medicare reimbursement. We calculated allowable accrued PRB costs for FYs
2006 and 2007, based on separately computed CAS PRB costs for the Medicare segment and the
“Other” segment, to be $6,477,898, a difference of $367,384.

FEDERAL REQUIREMENTS

The FAR states that accrual accounting may be used to determine the allowable PRB costs if the
cost is measured and assigned (actuarially determined) according to generally accepted




                                               2
accounting principles based on amortization of any transition obligation. 2 The FAR also states
that allowable costs must be funded by the time set for filing the Federal income tax return or
any extension thereof and must comply with the applicable standards promulgated by the CAS
Board.

UNALLOWABLE ACCRUED POSTRETIREMENT BENEFIT COSTS CLAIMED

FCSO claimed $367,384 of unallowable Medicare accrued PRB costs for FYs 2006 and 2007.
During that period, FCSO claimed accrued PRB costs of $6,845,282 for Medicare
reimbursement. Following FCSO’s practice of segmented accrual accounting for PRBs, we
calculated allowable accrued PRB costs based on separately computed CAS PRB costs for the
Medicare segment and the “Other” segment. Based on the terms of the Medicare contracts, the
allowable CAS accrued PRB costs for this period totaled $6,477,898.

The following table compares allowable accrued PRB costs with the accrued PRB costs claimed
on FCSO’s FACPs. Appendix A contains details on allowable PRB costs and contributions.

                   Comparison of Allowable PRB Costs and Claimed PRB Costs
                                       Medicare PRB Costs
                                    Allowable     Claimed
                     Fiscal Year     Per Audit    By FCSO     Difference
                        2006          $3,065,845   $3,212,276 ($146,431)
                        2007           3,412,053    3,633,006   (220,953)
                         Total        $6,477,898   $6,845,282 ($367,384)

FCSO based its claims for Medicare reimbursement on end-of-year CAS PRB costs. However,
those CAS PRB costs were overstated in that they exceeded the CAS PRB costs that were
allowable as determined during our audit. We considered available funding and used the
beginning-of-year CAS PRB costs in our computations of allowable PRB costs. In addition,
FCSO based its FY 2007 claim on an incorrect Medicare allocation. As a result of these errors,
FCSO claimed $367,384 of unallowable accrued PRB costs.

RECOMMENDATIONS

We recommend that FCSO:

    •    decrease its FACP accrued PRB costs by $367,384 and

    •    ensure that future accrued PRB cost claims are in accordance with the Medicare
         contracts.




2
 Costs attributable to past service (transition obligation) must be assigned under the delayed recognition
methodology described in paragraphs 112 and 113 of SFAS 106.


                                                          3
AUDITEE COMMENTS

In written comments on our draft report, FCSO agreed with our finding and stated that it will
implement our recommendations. FCSO’s comments are included in their entirety as
Appendix B.




                                                4
APPENDIXES
                                                                                                                                Page 1 of2
                                  APPENDIX A: FIRST COAST SERVICE OPTIONS, INC. 

                         STATEMENT OF ALLOWABLE ACCRUED POSTRETIREMENT BENEFIT COSTS 

                                          FOR FISCAL YEARS 2006 AND 2007 


                                                                      Total               Other            Medicare            Total
     Date       I               Description                      I   Company        I    Segment       I   Segment        I   Medicare

     2005        Allocable PRB Cost 	                       11                          $11.272.918        $2.765.630
                 Medicare LOB* Percentage                   21                                1.45%            89.24% 

                 Plan Year Allowable PRB Cost               31                            $163.457         $2,468,048 


     2006       Contributions                               41       $16,751,773        $16,751,773                $0
    5.00%       DisCOllllt for Interest                     51         ($797,703)         ($797,703)               $0
January 1, 2006 Present Value Of Contributions              61       $15,954,070        $15,954,070                $0
                Prepayment Credit Applied                   71       $17,584,066        $14,084,665        $3,499,401
                Present Value Of Fllllding                  81       $33,538,136        $30,038,735        $3,499,401

January 1, 2006 	 Current Period Fllllding Reguirernent     91       $17584,066         $14,084,665        $3,499,401
                  Percentage Fllllded                      101                              100.00%           100.00%
                  Funded PRB Cost                          111                          $14,084,665        $3,499,401
                  Allowable Interest                       121                                   $0                $0
                  Allocable PRB Cost                                                    $14,084,665        $3,499,401
                  Medicare LOB* Percentage                                                    1.52%            85.63%
                  Plan Year Allowable PRB Cost                                             $214,087        $2,996,537

     2006        Fiscal Year Allowable PRB Cost            131 	                          $201,430         $2,864,415         $3,065,845
                                                                                                       I                  I


     2007       Contributions                                        $11,016,610        $11,016,610                $0
    5.00%       Discount for Interest                                  ($524,600)         ($524,600)               $0
January 1, 2007 Present Value Of Contributions                       $10,492,010        $10,492,010                $0
                Prepayment Credit Applied                            $19,388,381        $15,634,298        $3,754,083
                Present Value Of Funding                             $29,880,391        $26,126,308        $3,754,083

January 1, 2007 	 Current Period Fllllding Requirement               $19,388,381        $15,634,298        $3,754,083
                  Percentage Funded                                                         100.00%           100.00%
                  Funded PRB Cost                                                       $15,634,298        $3,754,083
                  Allowable Interest                                                             $0                $0
                  Allocable PRB Cost                                                    $15,634,298        $3,754,083
                  Medicare LOB* Percentage                                                    1.14%            87.93%
                  Plan Year Allowable PRB Cost                                            $178,231         $3,300,965

     2007        Fiscal Year Allowable PRB Cost 	                                         $187,195         $3,224,858         $3,412,053
                                                                                                       I                  I

   * Line of business.

   FOOTNOTES

lL The allocable postretirement benefit (PRB) cost is the amOllllt of PRB
                                                                        cost that may be allocated for contract costing purposes. The
   allocable PRB costs for 2005 were obtained from our prior review (A-07-06-00213, issued December 7, 2006).

2J. We calculated allowable PRB costs of the Medicare and "Other" segments based on the Medicare line of business (LOB)
   percentage of each segment. We obtained the percentages from information provided by First Coast Service Options, Inc. (FCSO).
   The 2005 Medicare LOB percentages were obtained from our prior review.
                                                                                                                                    Page 2 of2


 .li We computed the allowable Medicare PRB        cost as the allocable PRB cost multiplied by the Medicare LOB percentage .

 .:U We obtained Total Company contribution amounts from the PRB actuarial valuation reports and trust transaction documentation that
     included the dates of deposits. The "Other" segment represents the difference between the Total Company and the Medicare
     segment. Total contributions to the trust flllld are the deposits made to the voluntary employee benefit association (VEBA) trust
     flllld. Such contributions can be used to satisfy the fimding requirements of Federal Acquisition Regulation (FAR) 31.205­
     6(0)(2)(iii) and Cost Accounting Standards (CAS) 416-50(a)(1 )(v)(A). The contributions included deposits made during the plan
     year and the diScOllllted value of accrued contributions, if any, deposited after the end of the plan year but within the time allowed
     for filing tax returns.

 ~   We
      	 subtracted the interest that is included in the contributions deposited after the beginning of each plan year to discount the 

     contributions back to their beginning-of-the-year value. For purposes of this Appendix, we computed the interest as the difference 

     between the present value of contributions at the valuation interest rate and actual contribution amounts. Interest is determined 

     using the expected long-term rate ofreturn assumption as reported in the PRB actuarial valuation report. 


 2L The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of the 

     plan year. 


 7.!.. 	 A prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment credit is
     created when contributions, plus interest, exceed the end-of year Current Period Funding Requirement. A prepayment credit may be
     camed forward, with interest, to the first of each subsequent plan year lllltil needed to fund future PRB costs. The accumulated
     value of prepayment credits is available as of the first day of the plan year and is applied as of the first day of the plan year to cover
     the cost assigned to the period.

 §L The present value of fllllding represents the present value of contributions plus applied prepayment credits. This is the amount of 

     funding that is available to cover the Current Period Fllllding Requirement measured at the first day of each plan year. 


 .2L The Current Period Fllllding Requirement is based upon the assignable CAS PRB costs computed during our review.     The Current
     Period Fllllding Requirement must be funded by accumulated prepayment credits or current year contributions to satisfy the fimding
     requirement of the FAR.

101 The percentage of costs funded is a measure of the portion of the Current Period Funding Requirement that was fllllded during the
    plan year. Since any fllllding in excess of the Current Period Fllllding Requirement is premature fimding of future period costs, the
    funded ratio may not exceed 100 percent. We computed the percentage fllllded as the present value of fllllding divided by the
    Current Period Fllllding Requirement. For purposes of this calculation, the percentage of funding has been rOllllded to four
    decimals.

ill We computed the fllllded PRB cost as the Current Period Fllllding Requirement multiplied by the percent fllllded.

121 We assumed that interest on the fllllded PRB cost, less the applied prepayment credit, accrues in the same proportion that the interest
    on contributions bears to the present value of contributions. However, we limited the interest in accordance with FAR 31.205­
    6(0)(4), which provides that interest costs are llllallowable if caused by a delay in fimding beyond 30 days after the end of the each
    quarter to which they are assignable.

131 	 We converted the plan year allowable PRB costs to a Federal fiscal year (FY) basis (October 1 through September 30). We
      calculated the FY PRB costs as 114 of the prior year's allowable costs plus 3/4 of the current year's costs. Costs charged to the
      Medicare contract should consist of the Medicare segment's direct PRB costs plus PRB costs attributable to indirect Medicare
      operations.
                             APPENDIX B: AUDITEE COMMENTS 





                                                                                              CA#Sj
FlRSrCOAST 	                                                                         . . . . . ._ ·- -7 

SBaVlCE
_        o mONa S.
   -..:;.a)t.NI _  INC.
                    __
                                                                                                    MEDICARE


                                                                                                     Sandy Coston
                                                                                                    CEO &. President
                                                                                       Firs! Coast S&Mce Option,. Inc.
                                                                                              Sandy.CosIOnOfcso.com
April 21 , 2010


Mr. PatriCk J. Cogley
Regional Inspector General for Audit Services
Department of Health and Human Services
Office 01 Inspector General
Office 01 Audit Services , Region VII
601 East 12'" Street, Room 0429
Kansas City. Missouri 641 06

Reference: A-07-09-00315

Dear Mr. Cogley:

ThiS lener is in response 10 the Department 01 Health and Human Services, Office of Inspector General's draft
report for the review Post Retirement Benefit (PRS) costs claimed by First Coast Service Options. Inc.'s Medicare
reimbursement for fiscal years 2006·2007.

We agree with the report firlding regarding the over claimed PRS costs and will take the following actions to
ensure the report recommendations are implemented:

         Follow CMS guidelines lor l iscal years 2006-2007 to decrease the claimed PRB costs by 5367.384. and

         Ensure that tutu re accrued PRB cost ctaims are in accordance with the Medicare contracts .


We appreciate the opportun ity 10 review and provide comments prior 10 the release oIlhe !inal report . If yo u have
any questions regarding our response. please contact Gregory England at 904-791-6364.

Sincerely.

 yffVld<r (ft1n-.-­
Sandy Coston

cc: 	    Jonathan Hogan. VP & CFO. First Coast Service Options, Inc.
         Gregory England, Director 01 Internal Audit, First Coast Service Options, Inc.
         Brenda Francisco, Director 01 Medicare Reporting, First Coast SaNice OpHons. Inc.
         CMry1 Mose, VP & Corporate COniroller. Blue Cross Blue Shield 01 Florida, Inc.
         Jay Pinkerton. VP, Aon Consulting




532 Rlversid&A.anua. J<tCksonvme. Florida 32202
P_O_80~ 45274 . Jacl<sonvHIe. Florida 3223,2·5274
Tel: 904·791·8409 

Fax: 904·36\.()372 

www.lcso.com 

